August 26, 2009

VINCENT H. DEVITO, JR
VICE PRESIDENT, CONTROLLER

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Postal Service’s Relocation Policy
         (Report Number FF-AR-09-211)

This report presents the results of our audit of the U.S. Postal Service’s Relocation
Policy (Project Number 09BO012FF000). We conducted this audit in response to a
request from Congress to review the Postal Service’s relocation policy. We provided
letters to several members of Congress with the preliminary results of our work. See
Appendix A for additional information about this audit.

Conclusion

The Postal Service’s relocation benefits are generally comparable to other federal and
private sector companies; however, the benefits it provides to relocating employees are
costly to the Postal Service. In calendar year (CY) 2008 alone, the Postal Service spent
$73 million in relocation costs related to over 2,000 employees. Although the Postal
Service’s average cost to relocate an employee homeowner is less than the industry
average, in light of the serious financial difficulties the Postal Service is facing,
significant reductions in relocation expenses could free up funds for more critical
operational purposes.

Underlying the high cost of relocating employees is the fact that the Postal Service does
not have a national policy for determining when it will advertise a vacancy locally versus
nationally, and whether or not to offer or limit relocation expense benefits in specific
circumstances. Consequently, until such policies associated with vacancy
announcements and benefit limits are implemented and the Postal Service’s financial
situation improves, we believe the Postal Service should consider freezing its relocation
benefits program.




      This report has not yet been reviewed for release under FOIA or the Privacy Act.
      Distribution should be limited to those within the Postal Service with a need to
      know.
Postal Service’s Relocation Policy                                                                 FF-AR-09-211



Postal Service Relocation Benefits Are Comparable But Costly

We determined through benchmarking that the Postal Service’s relocation benefits were
generally comparable to other federal agencies and private corporations, with the
exception of differences related to maximum home purchase prices, house hunting
trips, and the Shared Appreciation Loan Program. Specifically:

•   Before February 2009, the Postal Service did not have an established maximum
    home purchase price. In February 2009, the agency established a $1 million ceiling
    on home purchase prices. Two of the seven federal agencies we contacted
    established ceilings for home sale prices of $750,000. Five other federal agencies
    and three private companies we interviewed had no established home purchase
    limit.1

•   The Postal Service allowed employees2 three house hunting trips until February
    2009, when they reduced the number of allowable trips to one. Other federal
    agencies and private companies allowed one trip.

•   The Postal Service has a Shared Appreciation Loan Program, whereby the Postal
    Service provides qualified PCES employees with home financing to purchase a
    comparable home if moving to an area with a higher cost of living. This policy is
    unlike any other federal agency’s program. In June 2009, the Postal Service
    eliminated the program.

Appendix B provides the details resulting from this benchmarking.

In CY 2008, the Postal Service spent $73 million for relocation benefits for more than
2,000 employees.3 In our view, some of the relocations that occurred during this period
were exorbitant. In one instance, the Postal Service paid over $1.9 million to relocate a
vehicle maintenance program analyst intrastate. The majority of this cost came from a
$1.7 million loss on the sale of this employee’s home.

In another instance, as cited by the national media, the Postal Service paid $1.2 million
to purchase an employee’s home through its real estate management firm. The revised
February 2009 relocation procedures (including the $1 million home purchase ceiling)
were not in place at the time the employee took a lateral transfer and relocated from
South Carolina to Texas. The Postal Service has paid over $75,000 to date to move
this employee. This includes $16,075 for the employee and his spouse to take a house
hunting trip, including per diem and temporary living expenses. These costs were paid
using a lump sum reimbursement process. The Postal Service implemented this

1
  Management issued revised relocation policies on August 13, 2009, that reduced the maximum value of a home
purchase to $800,000.
2
  This benefit was allowable for Executive and Administrative Schedule (EAS), Postal Career Executive Service
(PCES), Officer and Officer retirees employees only.
3
  Includes relocations without home purchases.




                                                       2
Postal Service’s Relocation Policy                                                                   FF-AR-09-211



process in 2005, consistent with an industry-wide practice of paying lump sum
payments for certain relocation expenses.4

We spoke directly with the relocating employee who told us that he and his wife indeed
had traveled back and forth to Texas from South Carolina on house hunting trips.
Consequently, this relocation was made in accordance with the policies and procedures
in effect at the time of the relocation. This house is currently unsold and is still on the
market. Appendix C lists the detailed costs of home purchases over $1 million from
January 2007 through March 2009.5

Relocation Contract is Cost Beneficial to the Postal Service

In January 2007, the Postal Service entered into a 3-year contract, with three 2-year
renewal options, with a Relocation Management Firm (RMF) to provide relocation
services. In accordance with its contract with the RMF, the Postal Service bears all the
risk and cost of relocating an employee, including any loss on home sales. In addition,
the Postal Service pays the RMF fees based on the fee schedule set forth in their
contract.

The relocation company realizes revenue from its realty partner relationships and
receives referral fees from the realty companies with whom it does business. A real
estate referral fee is a portion of a broker's commission paid to a party that provided
either a listing or selling prospect to that broker. Referral fee programs are commonly
used to generate additional business and income for real estate practitioners, brokerage
firms, relocation management companies, and corporations.

It is our opinion that, while the Postal Service bears the risk of loss, the contract overall
is comparable to or better than the General Services Administration’s (GSA) fixed fee
contracts. This is because, unlike the Postal Service contract, the fees associated with
the GSA contracts can be up to 40 percent of the home sale price. According to the
Worldwide Employee Relocation Council Relocation Assistance Survey, the average
cost to relocate a current employee homeowner was $76,600 in CY 2007 with many
companies paying well above $100,000 per home-owning transferee. The Postal
Service’s average relocation cost for an employee homeowner was $45,254 in
CY 2008.




4
  Under the lump sum payment process, employees are not required to provide receipts substantiating their house
hunting expenses (including airfare and/or lodging expenses) and temporary quarters. According to a Worldwide
Employee Relocation Council® report, lump sum payment is a prevalent industry-wide method for covering relocation
expenses for per diem and temporary lodging. The practice of covering actual expenses has steadily been declining;
only 14 percent of organizations resorted to this method in the most recent year studied, according to this report.
5
  There were a total of 14 home purchases of $1 million or more from 2004 through 2009.




                                                         3
Postal Service’s Relocation Policy                                                                  FF-AR-09-211



The Postal Service Should Strengthen its Relocation Policy and Curtail Benefits
Due To Economic Conditions

Underlying the high cost of relocating employees is the fact that the Postal Service does
not have a national policy for determining when it will advertise a vacancy locally versus
nationally, and whether or not to offer or limit relocation expense benefits in certain
circumstances. Instead, local officials sometimes make these important decisions for
subjective reasons. For example, Postal Service officials told us that managers often
advertise jobs nationally and include relocation benefits to bring in new talent or when
they feel there are no local qualified candidates. We believe a less expensive
alternative to hiring nationally and paying the high cost of relocation would be to
consider hiring and training locally available employees.

We recognize that, as an ongoing business enterprise, the Postal Service needs the
flexibility to relocate employees and there are relocations the Postal Service is
contractually obligated to pay, including those of retirees. The Postal Service has taken
steps to strengthen its relocation policy, including issuing revised procedures in
February 2009 to install the $1 million ceiling on home purchases and to advise
employees that relocation benefits may not be provided in each case. Officials also
stated they are considering further restricting the requirements to participate in the
employee relocation program by reducing the maximum value of a home purchase to
$800,000, eliminating the Shared Appreciation Loan Program, reducing the number of
house hunting trips, eliminating the home purchase program for EAS levels 22 and
below, and restricting relocation benefits for lateral transfers and downgrades.6

While the Postal Service is taking action to strengthen its policy and reduce expenses,
we believe it needs to go further to reduce the overall cost of this program in light of the
current economic crisis it faces. We believe their policy should specifically define when
the Postal Service should fill a vacancy locally versus nationally, pay for moves, and
reduce relocation benefits for expenses not incurred.

We recommend the Vice President, Controller, in coordination with the Vice President,
Employee Resource Management:

1. Consider a temporary freeze for all employee relocations (except those they are
   contractually or otherwise legally obligated to pay and those related to Reductions in
   Force avoidance) until relocation policies are updated and the Postal Service’s
   financial position improves.




6
  Management issued revised relocation policies on August 13, 2009, that incorporated the changes related to the
maximum value of a home purchase, reducing the number of house hunting trips, and eliminating relocation benefits
for EAS levels 22 and below, lateral transfers, and downgrades. Management also eliminated the Shared
Appreciation Loan Program in June 2009.




                                                        4
Postal Service’s Relocation Policy                                                 FF-AR-09-211




Management’s Comments

Management disagreed with the recommendation, stating that a temporary freeze on
relocations was not feasible. However, management has taken actions, including
revising the relocation policy, which will significantly reduce relocation costs. New
relocation policies became effective on August 13, 2009, via Postal Bulletin 22265,
Handbook F-15-A Revision: Changes to Relocation Benefits and Policy. In addition,
management advised that they are filling vacant positions on an exception basis only
(when it is clearly in the best interest of the Postal Service). Management believes the
slowdown in filling vacant positions has contributed to the 53 percent reduction this
fiscal year in relocation expenses from 2008 levels.

Further, management provided some points of clarification to the draft report related to
house hunting trips and the Shared Appreciation Loan Program, and provided an
updated status on the sale of a home cited in the draft report. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report. In addition, we updated the report to clarify some
questions noted by management in response to the draft report. We have reviewed the
revised relocation policy issued August 13, 2009, and verified that it does indeed set
forth stricter relocation policies, which will in turn result in an overall reduction in
relocation costs. We consider this significant recommendation closed.

2. Clarify when the Postal Service should (1) fill vacancies locally versus nationally, (2)
   decline to pay relocations and (3) reduce benefits (in addition to the already
   proposed relocation policy changes).

Management’s Comments

Management disagreed with the recommendation to clarify relocation policy regarding
filling vacancies locally versus nationally, and stated that the selecting officials are in the
best position to determine job posting strategy. Management did not respond to our
recommendation to clarify policy as to when relocations could be declined and when
benefits should be reduced.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive and will not resolve all
the issues identified in the report. We continue to believe that the Postal Service’s
relocation policy should be clarified to provide consistent and clear criteria for




                                               5
Postal Service’s Relocation Policy                                             FF-AR-09-211



advertising positions locally versus nationally in order to promote consistency among
job vacancies announcements throughout the country. Although management did not
address our recommendation to clarify policy regarding when to decline relocation pay
and reduce benefits, we have reviewed the Postal Service’s revised relocation policy,
issued August 13, 2009, and determined that management has implemented more
stringent relocation policies. These changes included eliminating relocation benefits for
employees EAS levels 22 and below, eliminating benefits for lateral transfers and
downgrades, capping home purchases at $800,000, and limiting payment for losses on
home sales at $100,000. The revised policy also contains specific instances of when
relocation benefits are to be reduced, as in the case of an employee owning or leasing a
residence at his or her new duty station.

Although these newly implemented policies represent a significant effort to reduce
overall relocation costs and align Postal Service more with that of the rest of the federal
government, we believe that additional instructions are needed. Specifically, we believe
instructions to posting officials should specifically limit new job postings to local
applicants only, but provide an option to advertise nationally if justified in writing and
approved by the next higher level. This will provide greater visibility and control over
relocation decisions as well as promote consistency in the awarding of relocation
benefits. We view this disagreement on recommendation 2 as unresolved, consider this
recommendation significant, and will pursue this through the formal resolution process.

The OIG requests written confirmation when corrective actions are completed. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments




                                             6
Postal Service’s Relocation Policy       FF-AR-09-211




cc: Joseph Corbett
    Stephen J. Forte
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Steven R. Phelps
    Bill Harris




                                     7
Postal Service’s Relocation Policy                                            FF-AR-09-211



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Title 39, U.S.C., § 410, gives the Postal Service the authority to establish its own
relocation policy. The Postal Service has outsourced all relocation services to an RMF
to ensure that employees receive uniform information on authorized relocation benefits.
The RMF provides applicable policies and procedures to transferring employees and
assists them with expense reimbursement to ensure prompt payment of reimbursable
expenses and with arrangements for moving and storing household goods.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to evaluate the Postal Service’s relocation benefits and
activity at the request of Congress. Specifically, we:

    •   Evaluated employee relocations made in CYs 2007 and 2008.
    •   Compared and benchmarked Postal Service relocation policies and practices to
        those of other federal agencies and private companies.
    •   Evaluated the Postal Service’s contract with its RMF.

We conducted this performance audit from March through August 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 18, 2009, and
included their comments where appropriate.




                                            8
        Postal Service’s Relocation Policy                                                                                               FF-AR-09-211



                                                                    PRIOR AUDIT COVERAGE

     Report Title            Report Number            Final Report Date                                          Report Results
Relocation Benefits          FR-RA-00-010(R)             May 2, 2000           Two officers who were promoted but did not change duty stations received
for Postal Service                                                             relocation benefits of about $248,000 for moves within the local commuting
Officers                                                                       area. We found that controls were not in place to ensure that the Board of
                                                                               Governors approved relocation benefits. The Postal Service agreed to
                                                                               require written justification for local moves and to have the Board of
                                                                               Governors review and approve deviations from relocation policy and
                                                                               components of officer incentive plans.
Miscellaneous                 FT-AR-00-001           September 28, 2000        Executives received miscellaneous relocation expense payments of
Relocation Expense                                                             $10,000 or $25,000 without having to document expenses incurred.
Payments                                                                       Consequently, payments could be perceived as a way to exceed the
                                                                               statutory limits on compensation. The Postal Service now requires officers
                                                                               to complete worksheets in connection with filing claims for relocation
                                                                               benefits. The worksheet contains a section listing the relocations taken
                                                                               over the past 3 years and requires approval from the Chief Financial
                                                                               Officer, Postmaster General, and the Board of Governors.
Equity Loss                   FT-AR-00-004           September 29, 2000        The report examined payments for losses on real estate transactions
Payments                                                                       incurred as part of the relocation benefits for Postal Service executives.
                                                                               The Postal Service updated the policy regarding formulas and calculations
                                                                               for equity loss payments and included a list to detail capital improvements.
Deviations from               FT-AR-00-005           September 29, 2000        Deviations from policy granted to Postal Service executives appeared to be
Postal Relocation                                                              in the best interest of the Postal Service. We made no recommendations.
Policy
Audit of Cendant             CA-CAR-00-063           September 29, 2000        The billing system and related internal control policies and procedures of
Mobility Services                                                              Cendant Mobility Services Corporation7 were adequate. We made no
Corporation’s Billing                                                          recommendations.
System
Incurred Cost Audit          CA-CAR-01-010            October 18, 2000         The audit of the cost incurred for CYs 1998 and 1999 under Postal Service
of Cendant Mobility                                                            contract 198525-97-B-0696 disclosed that no findings were reported. We
Service Corporation                                                            made no recommendations.




        7
            Cendant Mobility Services Corporation’s name changed to Cartus in 2006.


                                                                                      9
       Postal Service’s Relocation Policy                                                                                FF-AR-09-211




    Report Title         Report Number      Final Report Date                                  Report Results
Shared Real Estate        FT-AR-02-001      October 17, 2001    Through benchmarking, we determined that the Shared Real Estate
Appreciation Loan                                               Appreciation Loan Program was not comparable to programs offered by
Program                                                         private companies or public sector agencies. The program was only offered
                                                                to a limited number of executives. Controls over the program needed
                                                                strengthening. The Postal Service agreed to make it available to all
                                                                executives, improve documentation, restrict participation to defined high-
                                                                cost areas, and ensure that exceptions are in the best interest of the Postal
                                                                Service. We recommended that management update the list of approved
                                                                high-cost areas annually. Although management agreed with the need to
                                                                measure the differences accurately in the urban cost of living index, they
                                                                noted that an annual review would be too frequent. Management proposed
                                                                conducting a biennial review and searching for a source other than the
                                                                American Chamber of Commerce Researchers Association’s index.
Relocation                FT-AR-02-012        May 31, 2002      Capping report summarized the previous five issued reports. We made four
Compilation Report                                              recommendations to strengthen controls. Management agreed with the
                                                                recommendation to document equity loss calculations but did not agree to
                                                                adjust officer miscellaneous expenses, eliminate the Shared Appreciation
                                                                Loan Program, or require officers to document miscellaneous costs if they
                                                                relocated more than once in a 3-year period. Through the audit resolution
                                                                process, management agreed to reduce officer miscellaneous relocation
                                                                benefits and require officers to disclose moves made in the past 3 years.
                                                                The Postal Service did not agree to eliminate the Shared Appreciation Loan
                                                                Program, and we agreed not to elevate the recommendation through the
                                                                resolution process at that time. In June 2009, the Postal Service eliminated
                                                                the program.




                                                                     10
                 Postal Service’s Relocation Policy                                                                                                       FF-AR-09-211



                                            APPENDIX B: BENCHMARKING COMPARISON OF RELOCATION BENEFITS8

                                                                    Federal                                                                                                 Employee
                                 Postal          Federal                         Office of                    Tennessee
                                                                   Deposit                      Department                  Company        Company        Company          Relocation
                                 Service          Travel                       Comptroller of                   Valley         10
                                       9                          Insurance                      of Labor                     A               B              C          Council (ERC)
                                 (EAS)         Regulations                       Currency                      Authority                                                            11
                                                                 Corporation                                                                                                 Survey
   Number of Workers             67,028        Not Applicable        5,400         3,000          16,848        11,460        5,100          70,000       100,000             Varies
Number of Houses Acquired                                                                                                                                               Not specified in
                                  1,022        Not Applicable        30             50              22            43            35             10           35
     (Last 2 Years)                                                                                                                                                           survey
                                                                                                                                                                       In 2007, average
 Average Profit/(Loss) on                                                                                                     Not
                                ($53,307)      Not Applicable     ($43,343)        None          Unknown       ($30,000)                  Not Available   $35,607      loss on sale was
       Home Sale                                                                                                            Available
                                                                                                                                                                             $20,243
                                                                                                                                                                           6 percent of
                                                No, Agency                                               12            13            13             13            13
  Home Purchase Ceiling        $1,000,000                           None         $750,000         None          None         None            None          None         companies offer
                                                 discretion
                                                                                                                                                                          with no limits
                                                                                                                                                                        Not specified in
   Offer relocation leave          Yes              No             5 days         5 days            No            No          5 days         3 days         No
                                                                                                                                                                              survey
                                                                                                                                                                          95 percent of
                                                $500/$1,000
                                                                                                                                                                           companies
                                                or actual not
                                                                                                                                                                            provide an
                                                 to exceed
  Miscellaneous Expense                                                        2 weeks’ base                                 $5,000-                                     allowance with
                                 $2,500        (NTE) 1 week        $5,000                       $500/$1,000   $500/$1,000                 $4,000/$8,000     Yes
         Allowance                                                                salary                                     $15,000                                    no requirement
                                               salary (single)
                                                                                                                                                                          to itemize or
                                                or 2 weeks’
                                                                                                                                                                            document
                                               salary (family)
                                                                                                                                                                            expenses
                                                                                                                                                                          99 percent of
                               3 trips (lump
 Advance House Hunting                                                                                                                                                 companies cover
                                    sum            1 trip           1 trip         1 trip          1 trip        1 trip       1 trip          1 trip       1 trip
         Trips                                                                                                                                                           for employees
                                payment)
                                                                                                                                                                          and spouses
                                                                                                                                                                          35 percent of
                                                                                                                                                                       companies cover
 Dependents on Advance                                                                                                                                    Spouse
                                   Yes         Spouse Only          Yes             Yes         Spouse only   Spouse only       No             No                         one or more
      Round Trip                                                                                                                                           only
                                                                                                                                                                           dependent
                                                                                                                                                                             children
 Child care for dependent
                                                                                                                            Included in    Included in                 Not specified in
  remaining home during            No               No               No             No              No            No                                        No
                                                                                                                               Misc           Misc                         survey
advance round trip of parent



                 8
                   We contacted GSA, Department of Defense (DOD), and Federal Reserve in St. Louis. However, we did not receive responses to all our questions. GSA
                 officials stated they have no home purchase ceiling, and DOD has a ceiling of $750,000. We also contacted 18 private companies, but they did not respond.
                 9
                    Handbook F-15, Travel and Relocation, Part 3 Relocation (Non-Bargaining Only), December 22, 2000 (updated through March 25, 2002). 
                 10
                    Due to concerns about publishing confidential commercial information from private companies that assisted us, we redacted their actual names. This
                 applies to columns titled Company A, Company B, and Company C.
                 11
                    Relocation Assistance: Transferred Employees. This is a comprehensive picture of the programs that facilitate employee mobility prepared by the
                 Worldwide Employee Relocation Council®, 2009.
                 12
                    Uses an average of two appraisals; an additional third appraisal is used if the difference between the first two is significant.


                                                                                                  11
                 Postal Service’s Relocation Policy                                                                                                   FF-AR-09-211


                                                             Federal                                                                                                Employee
                                 Postal       Federal                     Office of                    Tennessee
                                                            Deposit                      Department                   Company         Company         Company       Relocation
                                 Service       Travel                   Comptroller of                   Valley          10
                                       9                   Insurance                      of Labor                      A                B               C       Council (ERC)
                                 (EAS)      Regulations                   Currency                      Authority                                                            11
                                                          Corporation                                                                                                Survey
                                                                                                                                                                   95 percent of
                                                                                                                                                                    companies
                                  60 days   30 days or
                                                                                                                                                                    cover; most
 Temporary Quarters (TQ)        (lump sum   actual NTE    30/60 days      14/7 days        60 days       60 days      30/60 days       30 days        30 days
                                                                                                                                                                  common time
                                 payment)    120 days
                                                                                                                                                                 limit was 54-55
                                                                                                                                                                       days
                                                                        GSA Per Diem                   $1,850/$1,55                                              Not specified in
    TQ Expense Limits             Yes           Yes         No limit                        Yes                          Yes              No          No limit
                                                                           Rate                             0                                                         survey
                                                                                                                                                                   62 percent of
                                                                                                                                                                    companies
  Return Trips to Former                                                                                                  Two
                                  1 trip        No         Two trips         No              No            No                         Two trips         Yes       intend a lump
       Residence                                                                                                      trips/month
                                                                                                                                                                 sum payment to
                                                                                                                                                                     cover this
    Return trip to former
                                                                                                                                                                 Not specified in
residence to escort family to      No           No            No             No              No            No            Yes        Yes; Final Trip     Yes
                                                                                                                                                                     survey
      new duty station
                                                                                                                                                                  50 percent of
                                                                                                                                                                    companies
Expenses while en route to
                                  Yes           Yes           No             Yes            Yes            Yes           Yes             Yes            Yes       intend a lump
      new location
                                                                                                                                                                 sum payment to
                                                                                                                                                                     cover this
                                                                                                                                                                  77 percent of
                                                                                                                                                                  companies do
  Use of RMF for: Home                        Agency                                        Yes, not                                                                not require
                                  Yes                         No             Yes                           Yes           Yes             Yes            Yes
         Purchase                            Discretion                                  through RMF                                                              employees to
                                                                                                                                                                  use a specific
                                                                                                                                                                      lender
                                                                                                                                                                  77 percent of
                                                                                                                                                                  companies do
Use of RMF for: Marketing                     Agency                                                                                                                not require
                                  Yes                        Yes             Yes             No            Yes           Yes             Yes            No
        Assistance                           Discretion                                                                                                           employees to
                                                                                                                                                                  use a specific
                                                                                                                                                                      lender
                                                                                                                                                                  77 percent of
                                                                                                                                                                  companies do
  Use of RMF for: Home                        Agency                                                                                                                not require
                                  Yes                        Yes             Yes             No            Yes           Yes             Yes            No
   Finding Assistance                        Discretion                                                                                                           employees to
                                                                                                                                                                  use a specific
                                                                                                                                                                      lender
                                                                                                                                                                  77 percent of
                                                                                                                                                                  companies do
Use of RMF for: Household                     Agency                                        Yes, not                                                                not require
                                  Yes                        Yes             Yes                           Yes           Yes             Yes            No
         Goods                               Discretion                                  through RMF                                                              employees to
                                                                                                                                                                  use a specific
                                                                                                                                                                      lender




                                                                                           12
                Postal Service’s Relocation Policy                                                                                                        FF-AR-09-211


                                                                 Federal                                                                                                     Employee
                                 Postal          Federal                       Office of                     Tennessee
                                                                Deposit                       Department                    Company        Company        Company            Relocation
                                 Service          Travel                     Comptroller of                    Valley          10
                                       9                       Insurance                       of Labor                       A               B              C            Council (ERC)
                                 (EAS)         Regulations                     Currency                       Authority                                                               11
                                                              Corporation                                                                                                     Survey
                                                                                                                                                                           90 percent of
                                                                                                                                                                             companies
Home Purchase Expenses             Yes            Yes             Yes             Yes             Yes           Yes            Yes            Yes                No
                                                                                                                                                                             provide this
                                                                                                                                                                                benefit
                                                                                                                                                                           90 percent of
                                                                                                                                                                             companies
   Home Sale Expenses              Yes            Yes             Yes             Yes             Yes           Yes            Yes            Yes            Yes
                                                                                                                                                                             provide this
                                                                                                                                                                                benefit
                                                                                                                                                                           77 percent of
                                                                                                                                                                         companies make
                                                                                                                                                                          this assistance
Equity Loss-Loss on Sale of                                    Yes, up to      Yes, with                                    Yes, up to     Yes, up to                         generally
                                   Yes             No                                 13          No             No                                          Yes
   Previous Residence                                           $50,000         limits                                       $10,000        $10,000                        available to all
                                                                                                                                                                             transferred
                                                                                                                                                                         employees in all
                                                                                                                                                                              locations
                                                                                                                                                                          Not specified in
       50-mile rule                Yes            Yes             Yes             Yes             Yes           Yes            Yes            Yes            Yes
                                                                                                                                                                                survey
                                                                                                                                                                           40 percent of
                                                                                                                                                                             companies
                                                                                                                                                                           report paying
  Loan Origination Fee or
                                 1 percent         Yes            Yes             Yes          1 percent      1 percent        No             Yes            Yes          discount points,
          Points
                                                                                                                                                                           with the most
                                                                                                                                                                         common amount
                                                                                                                                                                          being 1.0 point.
                                                                                                                                                                           42 percent of
                                                                                                                                                                            respondents
                                                                                                                                                                               provide
                                                                                                                                           Yes, called
                                PCES in                                                                                                                                   mortgage buy-
Shared Appreciation Loan                                                                                                                    Mortgage
                               select cities       No             No              No              No             No            No                                No        downs, either
     (SAL) Program                                                                                                                          Buydown
                               and Officers                                                                                                                                 temporary or
                                                                                                                                            Subsidy
                                                                                                                                                                         permanent, on a
                                                                                                                                                                          formal or case-
                                                                                                                                                                           by-case basis.
                                                                               No, use
    Mortgage Interest                                                          Mortgage                                                                   Yes, if over   Not specified in
                                    No             No             Yes                             No             No            No              No
      Differential                                                             Subsidy                                                                     8 percent         survey
                                                                               Program
                                                Up to 180                                                                                                  180 days        91 percent of
Household Goods Storage          60 days                        60 days           No            90 days        90 days       60 days        60 days
                                                  days                                                                                                       max         companies cover




                13
                     Responsible for first 5 percent loss from original purchase price (maximum of $25,000 if using a relocation company, and $35,000 if not).


                                                                                                13
                 Postal Service’s Relocation Policy                                                                                                      FF-AR-09-211


                                                                  Federal                                                                                              Employee
                                 Postal          Federal                       Office of                     Tennessee
                                                                 Deposit                       Department                 Company       Company          Company       Relocation
                                 Service          Travel                     Comptroller of                    Valley        10
                                       9                        Insurance                       of Labor                    A              B                C        Council (ERC)
                                 (EAS)         Regulations                     Currency                       Authority                                                           11
                                                               Corporation                                                                                              Survey
                                                                                                                                                                     93 percent also
                                                                                                                                                                        assist the
  Tax Assistance-Federal                         Agency
                                   Yes                            Yes             Yes              No           Yes          No             No             Yes       employee with
       Income Tax                               Discretion
                                                                                                                                                                      additional tax
                                                                                                                                                                         liability
    Calendar Year-end
                                                                                                                                                                     Not specified in
  Relocation Income Tax            Yes             Yes            Yes              No             Yes           No           No            Yes              No
                                                                                                                                                                         survey
        Allowance
Surviving spouse relocation                                                                                                                                          Not specified in
                                    No              No             No             Yes             Yes           No           No             No              No
          benefits                                                                                                                                                       survey
                                                                                                                                            Yes,
    Spouse job search                                                                                                                                                Not specified in
                                    No              No             No             Yes              No           No           No       International to      No
       expenses                                                                                                                                                          survey
                                                                                                                                         U.S. only
                                                  Yes, for
                                                  Senior        Yes, with
                                                                                                 SES
  Relocation benefits for                        Executive      years of                                                                                             Not specified in
                                PCES Only                                          No          employees        No           No             No              No
        Retirees                               Service (SES)     service                                                                                                 survey
                                                                                                 only
                                                employees       minimum
                                                    only
                                                                                                                                                                      78 percent of
Different relocation polices                                                                                                                                         companies have
 for Executives vs. Non-           Yes             Yes             No              No              No           Yes          No             No             Yes         tiered policy
        Executives                                                                                                                                                   based on salary
                                                                                                                                                                       and job level
  Require the relocating          Yes, Not                                   No, required to                                                                          87 percent of
employee to list/market their   required for                                     market                                                                                 employers
                                               Not Available       No                             Yes           Yes         Yes             No              No
home (if selling one) before       PCES                                       concurrently                                                                                require
        using the RMF           Employees                                      with RMF                                                                                participation
 Typical contract terms if                                                                                                  Not                            Not       Not specified in
                                Firm Fixed     Not Available    Cost Plus      Fixed Fee       Percent Fee    Standard                Not Available
         using a RMF                                                                                                      Available                      Available        survey
   How RMF is paid for           Per Fee                                     Percentage of                                  Not                                      Not specified in
                                               Not Available    Fixed fee                      Percentage     Invoiced                Not Available      Flat Fee
           services              Schedule                                     home value                                  Available                                       survey
     RMF shares in the                                                                                                                                               Not specified in
                                    No         Not Available       No              No              No           No           No            Yes              No
profit/loss of the home sale                                                                                                                                              survey




                                                                                                 14
     Postal Service’s Relocation Policy                                                                                            FF-AR-09-211



                      APPENDIX C: RELOCATION COSTS FOR HOME PURCHASES IN EXCESS OF $1 MILLION
                                          FROM JANUARY 2007 - MARCH 2009

File Number                       192662114             1798971            1724964            1746977            1597958     1779351          1764607
Postal Service Area
Location                       Capital Metro             Pacific            Pacific         Southeast        Capital Metro   Pacific         Southeast

Home Finding                                                                                                        $3,538
En Route Trip                                                $1,549                $755           $1,248                                             $1,405
Home Sale Incentive                                                                                5,000
Household Goods
Moving                                  $21,252              14,692              25,556           12,245             8,340     $37,588               15,678
Household Goods
Storage                                    6,234              1,610               2,018                                          7,194                1,722
Lump Sum Payments                         16,075             11,997              10,872           14,967                        12,690               20,750
Miscellaneous
Allowance                                  2,500               2,500              2,500            2,500            10,000       2,500                2,500
New Home Closing
Costs                                      5,531              2,222              5,819             9,192            18,150       8,888
Other                                         27                112                111               202               205          98                   138
Loss on Home Sale                                           112,500            112,500                 0                 0     263,433             1,700,000
Departing Home
Costs (including
Broker Fees)                             13,250            105,680            100,084           106,282             92,342     192,466               222,760
Tax Assistance                           11,405             10,580             10,795            $8,158             14,605       8,990                 7,959
Total                                   $76,274           $263,442           $271,010          $159,794           $147,180    $533,847            $1,972,912




     14
          This home has not yet been sold. Therefore, some of the relocation costs have not yet been incurred.


                                                                                    15
Postal Service’s Relocation Policy                          FF-AR-09-211



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                       16
Postal Service’s Relocation Policy        FF-AR-09-211




                                     17
